Certificate of Service
2/26/2021
No. 20-1010

Supreme Court of the United States

BRIEF FOR THE RUTHERFORD INSTITUTE
AMICUS CURIAE IN SUPPORT OF PETITIONER

I hereby certify that I am this day serving the foregoing
document electronically upon the person(s) and in the manner indicated
below. Service by first-class mail addressed as follows:

Respectfully Submitted,
ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

Certification of Word Count
No. 20-1010

Supreme Court of the United States

BRIEF FOR THE RUTHERFORD INSTITUTE
AMICUS CURIAE IN SUPPORT OF PETITIONER

ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

